Eric C. Wood, Partner
Direct Dial: (214) 367-7501
Email: eric@brownfoxlaw.com

June 2, 2020

Via First-Class Mail
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Todd Phillippi, Petitioner v. Humble Design, L.L.C. and Warren David Humble,
Respondents; In the Supreme Court of the United States
Petition for Writ of Certiorari

To the Supreme Court of the United States:
Humble Design, L.L.C. (“Respondent”) has received copies of the Petition for Writ of
Certiorari submitted by Todd Phillippi. The case does not warrant review by the Supreme Court.
Therefore, Respondent does not intend to respond to the petition for certiorari unless requested to
do so by the Court.
If there are any questions, please do not hesitate to contact me at (214) 367-7501.
Sincerely,

Eric C. Wood
cc:

Via First-Class Mail
Todd Phillippi
Petitioner pro se
411 North 8th Street
Midlothian, TX 76065

